No. 20A169
IN THE

~upreme QI::ourt of tbe Wniteb ~taten
ALABAMA ASSOCIATION OF REALTORS, ET AL.,

Applicants,
v.
U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES, ET AL.,

Respondents.

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5 and the April 15, 2020 Order of this Court,

I hereby certify that a copy of the Reply in Support of Emergency Application for a Vacatur
of the Stay Pending Appeal in Alabama Association of Realtors v. HHS, No. 20A169, was
served via electronic mail and by third-party commercial carrier on all parties required:
Elizabeth B. Prelogar
Acting Solicitor General

Loren L. AliKhan

950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001
(202) 514-2217
supremectbriefs@usdoj.gov

400 6th Street, NW, Suite 8100
Washington, DC 20001
(202) 727-6287
loren.alikhan@dc.gov

Counsel for Respondents

Counsel for Amici Curiae

DEPARTMENT OF JUSTICE

D.C. OFFICE OF THE ATTORNEY GENERAL
OFFICE OF THE SOLICITOR GENERAL

I declare under penalty of perjury that the foregoing is true and correct.

Date: June 14, 2021

